                                            NATIONAL ACADEMY OF
                                            PUBLIC ADMINISTRATION(\)




           Amtrak
Office of Inspector General

                           Office of
                       Inspector General




       Final Briefing
               August 2010
         900   7th   Street, NW Suite 600
                Washington, D.C.
                                                                                                             ~ NATIONAL ACADEMY OF
                                                                                                           . . . PUBLIC ADMINISTRATION®


Project Approach



                                                                                                       Identify &
                                        Assess Desired                 Identify Gaps,                  Prioritize
           Assess Current                "To-Be" State                 Opportunities                Improvements
            "As-Is" State                 and Current                    and Risks                     and Risk
                                             Plans                                                 Mitigation Steps


      v" Gain insight from         v" Assess goals and            v" Identify gaps            v" Identify most urgent
         OIG senior leaders on        strategies in Strategic        between current             and important
         current state of the         Plan                           performance and             changes/steps
         organization , case for                                     desired performance      v"
                                   v"    Identify challenges in                                     Prioritize and sequence
         change, and vision for                                      in areas examined
                                        attaining strategic                                        strategies and actions
         future                                                   v"
                                        intent                          Identify strengths,   v"    Identify performance
      v"    Collect staff input                                        weaknesses,
                                   v"    Assess organizational                                     objectives that can be
           (survey)                                                    opportunities, risks
                                        awareness and support                                      used to hold leaders and
      v"    Conduct stakeholder         for change effort         v"    Identify short and         staff accountable
           interviews                                                  long-term
                                   v"    Review resource, staff                               v"    Develop road map for
                                                                       implications of
      v"    Review available            and other plans and                                        implementing
                                                                       organizational
           documentation (org           projections that may                                       recommended
                                                                       issues
           structure, plans,            impact operations                                          strategies and actions
           policy manuals, etc.)




                                                                                                                                      2
                                                                                                                                                                         ~ NATIONAl ACADEMY OF
                                                                                                                                                                        ~ PUBLIC ADMINISTRATION®

Schedule

                                                                May                                        June                                    July                                     August
              Task
                                       3-7          I   10-\4   I   17-21   I   24-28    31-1   I   7-11   I   14-18   I   21-25   28-2   I 5-, I 12-16 1   19-23   1   2&-30   2-6   1   9-13   116-20 1   23-31

Project kick-off                   .... . . . . ,   J




                                               ••
NAPA conducts interviews with
senior OIG staff

                                            ~
NAPA reviews documentation

First Panel Meeting                                                         •    May26
NAPA conducts interviews with
stakeholders                                                                     ••
On line survey for OIG staff

Benchmarking Interviews

CIGIE Benchmarking Survey

Data analysis and preparation of
draft assessment
                                                                                                                                     _.
Second Panel Meeting                                                                                                                         • July9
NAPA submits draft report to
OIG and Panel
                                                                                                                                                                        •
NAPA gives oral presentation
for senior OIG staff
                                                                                                                                                                                                 • Aug 16


OIG & Panel submit written

                                                                                                                                                                                                       •
                                                                                                                                                                                                      -•
comments to NAPA

NAPA incorporates DIG & Panel
feedback

OIG receives final assessment
findings




                                                                                                                                                                                                                    3
                                                                                                                                                 NATIONAL ACADEMY OF
                                                                                                                                                 PUBLIC ADMINISTRATION®


Data Collection/Sources of Information
                 Area                                                                        Interviewees
                                     -Ted Alves, Inspector General ..J                                      -Nick Pinto, Acting A1G for Audits ..J
                                     -Thomas Howard, Deputy Inspector General "                             -Adrienne Rish. AIG, Investigations ..J
                                     -Colin C. Carriere, General Counsel ..J                                -Sue Ryan, Principal Officer/HeM ..J
 Interviews with OIG management      -Sret Coulson, AIG Management & Policy ..J                             -Katherine Moore, Audit Project SupervisoN
 team & key senior staff (Appendix   -Calvin Evans , AIG Inspections & Evaluations ...;                     ·Phil Ong,Director, raE ..J
 A)                                  -Jerry Gideon, Senior Director, Management & Policy ..J                -John Grimes, Chief Inspector ..J
                                     -Alan Klein, Senior Director, Audits .J                                ·Joe O'Rourke, Regional Special Agent-in-Charge ..J
                                     -Dan Krueger. Senior Director, Audits ..J                              • Kathleen Ranowski, Deputy Counsel ..J
                                                                                                            - Catherine Smith, Chief, I&E ,
                                     ·Eleanor Acheson, Vice President, Gen Counsel and Corporate            ·Joe McHugh, Vice President, Government Affairs and
                                     Secretary, Amtrak ..J                                                  Corporate Communications ..J
                                     ·Joe Boardman, CEO, Amtrak ..J                                         ·Donna McLean, Vice Chair of Amtrak board ..J
 Interviews with stakeholders        ·Thomas Carper, Chair of Amtrak Board ..J                              ·Nancy A. Naples, Soard Member ..J
                                     ·Sill Crosbie, COO, Amtrak..J                                          ·Jessica Scritchfield, Principal Audit/Controls Officer ..J
 internal to Amtrak (Appendix B)
                                     ·Stephen Gardner, Vice President, Policy & Development..J              ·DJ Stadtler, CFO, Amtrak ..J
                                     ·Lorraine Green, Vice President, Human Resources and                   ·Mark Yachmetz, Soard Member ..J
                                     Diversity Initiatives..J

 Interviews with stakeholders -      -Ellen Beares, Senate Appropriations Staff MemberJ                     ·Sylvia Garcia, House Appropriations Committee ..J
                                     ·Carl Clinefelter, Vice-Chair, CIGIE ..J                               ·Don Hickman, Consultant ..J
 external to Amtrak (Appendix B)                                                                            ·Rachel Milberg, Senate Appropriations Staff ..J
                                     ·Emilia DiSanto, Chief Investigator for Senator Grassley ..J
                                     ·Dave Dobbs, Consultant ..J                                            ·Steve Patterson, Partner, Hu nton & Williams ..J
                                     ·Jason Foster, Investigative Counsel for Senator Grassley ..J          ·Lex Stefani, Consultant ..J

 OIG Best practices                  ·Rickey Hass, Assistant IG, Audits, DOE..J                             ·Glenn Fine, Inspector General, DOJ ..J
                                     ·John Hartman, Assistant IG, Investigations, DOE..J                    ·Cynthia Schnedar, Deputy IG, DOJ..J
 (Appendix 0)
                                     ·Todd Zinser, Inspector General, DOC"                                  ·Richard Moore, Inspector General, TVA ..J
                                     ·Wade Green, Acting Deputy IG/General Counsel, DOC..J                  ·Sen Wagner, Deputy IG, TVA''/
                                     -Usa Allen, Chief of Staff, DOC OIG,                                   oDavid Kotz, Inspector General, SEC..J
                                     ·Ann Eilers, AIG, Office of Audit and Evaluation , DOC..J

 Secondary research                  Research OIG org characteristics and business practices of comparable OIG offices; Review Amtrak OIG internal documentation,
                                     including org charts, strategic plans, CIGIE Reports, 2009 Audit Peer Review, the IG Congressional Testimony, etc. ..J

 All OIG Staff                       Online survey to be initiated near conclusion of targeted interviews, to capture bottom-up information about the current climate.
                                     workload, staffing resources, processes, culture, and performance gaps "

 CIGIE members                       Online survey focusing on benchmark areas ..J




                                                                                                                                                                          4
                                                                                                                                         NATIONAl ACADEMY OF
                                                                                                                                         PUBLIC ADMINISTRATION®


  Baseline Observations About the Amtrak OIG
Current State                                  Case for Change                                    Future State of Amtrak OIG

• OIG historically had minimal                 • New IG and leadership team hail from high-        Has effective internal communication strategies that allow all OIG
  communication between and among                performing OIGs; can educate and                  staff to be informed and invested in achieving a high-performance,
  Executive team and functional groups           communicate "what a successful OIG does"          high-accountability organizational mission.
                                                 to Amtrak, OIG employees, and stakeholders        Has constructive relationships with Amtrak and Congressional
• New members of Executive team
  have been well received by staff, and        • Culture of fear and anxiety is not healthy or     stakeholders that enable it to gather and share information about
  IG made a good number of early wins            sustainable                                       potential areas of risk, while maintaining independence and
  that won him credibility with                • Many OIG employees express desire to do           transparency.
  stakeholders                                   higher-quality work that they can take pride      Has a work planning and prioritization process that engages
                                                 in , and welcome leaming about OIG best           stakeholders in identifying and reducing areas of perceived risk,
• Staff waiting to see what changes              practices                                         and fully assesses the nature, scope and inherent risks of Amtrak
  leadership plans to undertake. Staff                                                             programs and operations.
  feel they have received little               • Investigators' firearms were revoked ;
                                                 minimally passed CIGIE peer review; lack of       Consistently follows commonly accepted work practices and
  communication about vision & next
                                                 clarity about need for Amtrak OIG since DOT       standards both within functional areas and across locations. Work
  steps, so there is fear about                  OIG is viewed as strong .... OIG needs to
  anticipated change and job security                                                              adheres to established quality standards and, as appropriate, is
                                                 r.h;,ncl" lest it be taken over                   accessible and transparent to OIG staff.
• Recognized need by OIG staff and                                                                 Has an independent and transparent relationship with its
  stakeholders that OIG needs to start
                                                                                                   stakeholders, in accordance with the letter and spirit of the IG Act
  doing higher-value work of impact to
                                                                                                   and applicable industry standards. Each stakeholder group has a
  Amtrak, and to follow consistent,
                                                                                                   clear understanding and a practical, applied definition of what it
  quality processes
                                                                                                   means to have transparent interactions with an independent OIG.
• OIG has had limited communication                                                              • Maintains and applies current, accurate and consistent policy
  with stakeholders. Stakeholders-                                                                 across the office; has a process to monitor changes in the external
  both Amtrak and Hill - feel that             Barriers                                            environment that affect its work practices and a mechanism to
  historically they have been alerted to                                                           incorporate those changes into internal policy; and makes all
  issues too late                              • Culture of limited communication and              guidance easily accessible to staff.
                                                 "information/resource hoarding"                 • Attracts and retrains high-performing employees; has consistent
• Independence of OIG and relationship
  with the Board has been strengthened         • Perception that different OIG staff might         job titles and job descriptions, and has in place training plans and
  since IG hire ... need to institutionalize     have different agendas; despite vocalized         performance management plans that link individual performance
  processes so no "slippage"                     support for new OIG direction , all employees     to OIG objectives.
                                                 might not be willing to make necessary            Has performance metrics that reflect the requirements of the IG
                                                 changes                                           Act, meet the expectations of GAO and Congress, reflect the
                                               • While recognized need to do more strategic        value of the OIG work to Amtrak: and aligned with OIG strategic
                                                 work, anxiety about what this means for job       goals. These metrics are integrated into the OIG's operating and
                                                 security and day to day routines                  performance management systems.
                                               • Many OIG near retirement and may not
                                                 welcome changes
                                                                                                                                                                  5
                                                                                                  ~ NATIONAl ACADEMY OF
                                                                                               ~ PUBLIC ADMINISTRATIONI!'
Benchmark Area # 1
Internal Communication                                                                         ~~
                     Amtrak OIG is an organization with effective internal communication strategies that allow all OIG staff
                     to be informed and invested in achieving a high-performance, high-accountability organizational
  Future State
                     mission.



                     OIG has had a culture that inhibits information sharing, and the OIG was unable to capitalize on
                     infonmation that could have been available through both regular and infonmal infonmation sharing
                     opportunities.
                     Communication among the units (audit, investigations, I&E) has been limited and on a "need-to-know"
                     basis, which fed an atmosphere of rumor, suspicion, and frustration.
                     The IG has begun the process of engaging OIG staff, but communication among and between OIG
                     units and staff still does not occur with regularity.


                 Quick Wins
                 1. Institute regular top-down communication practices such as a monthly email highlighting on-going
                    work, employee achievement, and OIG successes.
                 2. Conduct regularly scheduled AIG unit meetings to discuss new work and progress on current work,
                    emerging issues, current events, etc.
                 3. Hold at least two all-staff meetings per year that include an opportunity for staff to make
                    presentations, ask questions of leadership, and recognize high-perfonming employees.
                 4. Develop mechanisms to allow OIG staff to give feedback to management.

                 Longer Term Recommendations
                 5. Make more effective use of technology and face-to-face meetings to strengthen internal
                    communications and build a culture of transparency and infonmation sharing.



                                                                                                                       6
                                                                                                  ~ NATIONAL ACADEMY OF
                                                                                                  ~ PUBLIC ADMINISTRATION'"
Benchmark Area #2
External Communication                                                                            ~".
                       Amtrak OIG has constructive relationships with Amtrak and congressional stakeholders that enable it
                       to gather and share information about potential areas of risk, while maintaining independence and
  Future State
                       transparency.



                       The IG has developed good, early working relationships with Amtrak mgmt., the Board, and the Hill.
                       OIG does not have an established process with standardized timeframes for providing stakeholders
                       updates on work in progress; stakeholders have expressed desire in knowing how and when the OIG
                       will communicate with them.
                       Some external stakeholders perceive that they have received less information than others from the
                       Amtrak OIG and suspect that information has been leaked by people in OIG.


                    Quick Wins
                    6. Develop a practical, "applied" definition of independence and a succinct statement of the benefits and
                       value of an independent OIG for use with the OIG Staff, Amtrak Board, and Amtrak Senior
                       Management.
                    7. Once new work processes are established this fall, OIG leadership should meet with both Amtrak and
                       Congressional stakeholders to brief them on the new processes, and let them know how and when
                       each of them can expect to receive updates, be part of an official comment period, and/or receive
                       information and reports.

                    Longer Term Recommendations
                    8. Establish standard procedures for reporting to external stakeholders. It should carefully develop a
                       manageable list and schedule of regular updates.
                    9. Develop and conduct "OIG 101" training sessions.



                                                                                                                             7
                                                                                                       ..0IIIIIIII NATIONAl ACADEMY OF
                                                                                                    . . . . PUBLIC ADMINISTRATION®
Benchmark Area #3
Work Planning and Prioritization                                                                    ~".
                        Amtrak OIG has a work planning and prioritization process that engages stakeholders in identifying
                        and reducing areas of perceived risk, and fully assesses the nature, scope and inherent risks of
                        Amtrak programs and operations. This process identifies high value work that provides strategic
                        value to Amtrak and enables OIG to more effectively allocate its resources to this work.


                        Work has not been centrally prioritized or coordinated to ensure alignment with the OIG's strategic
                        direction, as well as to provide maximum value and impact to Amtrak.
                    •   OIG staff interviewees recognize that staff need to perform more work that is of high-value impact to
                        Amtrak.
                        Staff capacity and skill set constraints impede leadership's ability to broadly engage OIG staff in the
                        work prioritization process.


                    Quick Wins
                    10. Create a means to close out all low-priority OIG work by the end of this fiscal year.
                    11. Discuss areas of perceived risk with the Amtrak Board and management.
                    12. Hold an extended meeting of senior staff from headquarters and field offices, AIGs, and senior OIG
                        leadership to discuss and finalize the upcoming year's priorities.
                    13. Institute a twice-yearly meeting among all AIGs and Amtrak senior team members to discuss any
                        areas of concern regarding OIG/Amtrak interaction, as well as perceived or emerging risks to the
                        corporation.

                    Longer Term Recommendations
                    14. Develop a comprehensive work prioritization plan, including interim operational milestones and a
                        communications plan, that will launch in Fall 2011.




                                                                                                                             8
                                                                                                     ~ NATIONAL ACADEMY OF
                                                                                                   . . . PUBLIC ADMINISTRATION®
Benchmark Area #4
Quality and Timely Work Processes                                                                  ~".
                        Amtrak OIG consistently follows commonly accepted work practices and standards both within
  Future State          functional areas and across locations. Work adheres to established quality standards and, as
                        appropriate, is accessible and transparent to OIG staff.


                    •   A lack of documented and well understood processes, tools and deadlines has resulted in
                        misaligned resources, inconsistent report formats, and inadequate accountability.
                    •   Audit, Inspections and Investigative staff do not conduct work in accordance with industry
                        standards.
                        OIG survey data and interviewees indicate a strong desire for processes and structure.
                    •   Policies and process guidance is on track to be completed in September 2010, followed by training.


                    Quick Wins
                    15. Ensure that training on the newly developed policies and procedures for Audit and I&E occurs this fall.
                    16. Require and provide basic written instruction to all OIG employees to utilize the appropriate electronic
                        tracking system.
                    17. Identify a number of audits/work that can be completed within a relatively short time period.
                    18. Celebrate the products of the improved work processes and training .
                    19. For Investigators, establish a deadline by which they must meet Attorney General Guidelines.
                    Longer Term Recommendations
                    20. Continue to place priority on developing internal policy and guidance, and pay special attention to
                        defining how Yellow Book standards will apply to audits and evaluations.
                    21. Ensure compliance with internal policy and guidance once they are developed.
                    22. Consider whether field offices should be relocated, eliminated or staffed differently, in light of new
                        OIG work flows, supervisory relationships, and project staffing.




                                                                                                                            9
                                                                                                    ...IIIIIIII NATIONAl ACAOEMY OF
                                                                                                  . . . PUBLIC AOMINISTRATIONi!>
Benchmark Area #5
Independence
                                                                                                  ~""
                    i   Amtrak OIG has an independent and transparent relationship with its stakeholders, in accordance
                        with the letter and spirit of the Inspector General Act and applicable industry standards. Each
  Future State
                        stakeholder group has a clear understanding and a practical, applied definition of what it means to
                        have transparent interactions with an independent OIG.


                    ·   The recently developed relationship policy document is a good start on building an effective, new
                        working relationship between Amtrak and Amtrak OIG.
                    ·   OIG staff, Amtrak management and staff and Board members could all benefit from education
                        about the roles and responsibilities of an OIG.
                    •   Amtrak staff will also learn about "OIG independence" through day to day interactions with OIG
                        staff, so issues should be resolved as they arise.

                    Quick Wins
                    23. Continue to have conversations with Amtrak management and the Board about its role, and resolve
                        issues as they arise.
                    24. Request an informal CIGIE consultative review to confirm that the policies and procedures agreed to
                        by management and the IG are being consistently implemented.

                    Longer Term Recommendations
                    25. Use the recently developed relationship policy to educate all stakeholders about the roles and
                        responsibilities of OIG and Amtrak.
                    26. Work with Amtrak management and Board to eliminate Amtrak-imposed restrictions on OIG's use of
                        funds, hiring actions or other resources that may adversely affect OIG's ability to fulfill its
                        responsibilities.




                                                                                                                         10
                                                                                                      ~ NATIONAl ACAOEMY OF
                                                                                                   . . . . PUBLIC AOMINISTRATION®
Benchmark Area #6
Policy Management and Updates                                                                      ~ll""
I
                        Amtrak OIG maintains and applies current, accurate and consistent policy across the office; has a
,
                        process to monitor changes in the external environment that affect its work practices and a
    Future State        mechanism to incorporate those changes into internal policy; and makes all guidance easily
                        accessible to staff.


                        OIG leadership and staff recognize the need for standardized, quality polices and guidance.
                        OIG has thus far not been able to fully engage staff in policy development.
                    •   Recently developed policies have been placed on the secure subnet, but they do not appear to
                        have been widely read and understood.
                        The function and role of M&P is not clear, and skill sets may not be aligned to OIG needs.


                    Quick Wins
                    27. Review recently developed policies at all-staff meetings, monthly AIG unit meetings, and other
                        internal forums.
                    28. Develop tools and training that demonstrate the practical application of the policies.
                    29. Define roles and responsibilities of the M&P group

                    Longer Term Recommendations
                    30. Clarify the roles of the functional groups (audit, investigations, and evaluation) and the M&P and
                        Legal groups in the policy development and update process.




                                                                                                                             11
                                                                                                        ..01IIIIIIII NATIONAl ACADEMY OF

                                                                                                      . . . PUBLIC ADMINISTRATION®
Benchmark Area #7
Human Capital Management

                        Amtrak OIG attracts and retains high-performing employees; has consistent job titles and job
  Future State          descriptions; and has in place training plans and performance management plans that link individual
                        performance to OIG objectives.


                    •   Amtrak OIG does not have an inventory of its employee's current skill set, and there is concern that
                        the current skill set of OIG employees is not sufficient.
                    •   OIG will need to train current staff and recruit experienced OIG staff to fill skill set and supervisory!
                        management gaps.
                        Job titles are not standardized, and supervisory skills, manager-to-staff ratios and accountability
                        systems are inadequate.


                    Quick Wins
                    31. Incorporate the development of a skills inventory into upcoming training delivery.
                    32. Streamline the number of job titles, make job titles consistent across functional units, and develop
                        standardized position descriptions that accurately reflect job requirements.
                    33. Establish a tracking system to monitor employee needs and completion of coursework.
                    34. Continue to engage those employees who have participated in the benchmarked OIG interviews and
                        give them ownership of process improvement ideas that have resulted from those interviews.

                    Longer Term Recommendations
                    35. Conduct a comprehensive human capital needs assessment and develop a human capital plan.
                    36. Establish processes for creating cross-functional teams and ultimately build them into its work
                        planning process.




                                                                                                                              12
                                                                                                     ..01IIIIIIII NATIONAl ACADEMY OF

                                                                                                   . . . PUBLIC AOMINISTRATIONi!>
Benchmark Area #8
Performance Measures                                                                               ~JI'"
                        Amtrak OIG has performance metrics that reflect the requirements of the Inspector General Act; meet
                        the expectations of GAO and Congress; reflect the value of OIG work to Amtrak; and align with OIG
                        strategic goals. These metrics are integrated into OIG's operating and performance management
                        systems.


                    •   OIG management recognizes the need for traditional quantitative measures, as well as subjective
                        and qualitative measures, in order to appropriate gauge the value/impact of OIG work.
                        The measures in the Strategic Plan provides a good starting point for identifying the most critical
                        output and outcomes measures related to internal OIG operations, but there are too many and
                        many are not measurable. Amtrak OIG does not have a system in place to track standard OIG
                        performance measures.


                    Quick Wins
                    37. Establish a process to track, on at least a quarterly basis, the metrics that all OIGs must report.
                    38. Start the process of engaging Board members and Amtrak leadership in a discussion about how to
                        measure the value of OIG work in a meaningful way.

                    Longer Term Recommendations
                    39. Engage the Amtrak Board and senior leadership in an ongoing dialogue about how the OIG can
                        effectively measure the value and impact of its work, and cooperatively identify qualitative and
                        quantitative performance measures.
                    40. Identify the most critical managerial and operational performance objectives and track their
                        achievement systematically.
                    41. Incorporate key organizational performance measures into its individual performance management
                        system.


                                                                                                                          13
                                                   ..01IIIIIIII NATIONAl ACAOEMY OF
                                                 . . . PUBLIC AOMINISTRATION®


Next Steps                                       ~".

 •   Develop implementation roadmaps for the
     following four areas:
       ~     Human Capital Management
       ~     Quality and Timely Work Processes
       ~     Work Planning and Prioritization
       ~     Performance Measurement


 •   Identify Executive Sponsor, Initiative Leader,
     and Staff Work Team for each roadmap



                                                                                 14
